                                                                                                                      June 6, 2014

Major General Jeffrey N. Colt
Deputy Commander, United States Forces – Afghanistan

Major General Kevin R. Wendel
Commanding General, Combined Security Transition
Command – Afghanistan

Major General Harold Greene
Deputy Commanding General Combined Security Transition
Command – Afghanistan

Dear Generals Colt, Wendel, and Greene:

Thank you for your response to our April 24, 2014 request for information on the $3 million
procurement of patrol boats for the Afghan National Police. I am grateful for the efforts you made to
try to answer our questions and your prompt reply was greatly appreciated.

I continue to have concerns, however, because CSTC-A was unable to answer a significant number of
my questions regarding the patrol boats. The list of unanswered questions is particularly troubling
given the fact – which CSTC-A acknowledges – that this program had been an important national
security priority for the Afghan National Security Forces prior to its cancellation.

This is not the first time SIGAR has been confronted with lapses in record keeping, which hinder our
ability to conduct our congressionally-mandated mission to oversee U.S. reconstruction funds.
In this case, the lack of records makes it especially difficult to discern the history of the procurement
and cancellation decisions. Among the missing records are the following:
     •    A concept of operations for employment of the boats.
     •    Whether a feasibility review of the operational requirement s was conducted.
     •    Documentation that the operational requirement was approved in 2010.
     •    Justification for including these boats on the Tashkil1 in 2010.
     •    The extent of involvement, if any, of the Afghan Ministry of Interior in the procurement
          process and the decision to cancel.
     •    The reasons and justification for cancelling this requirement.

Further, CSTC-A’s response indicates that its Security Assistance Office (SAO) led a review board that
determined that the boats do not fill a valid requirement for Afghanistan. However, no explanation of
the basis for this decision is given.

1 The Tashkil is an Afghan government Ministry of Interior document that dictates the force structure, personnel end strength, command
relationships, and unit/staff functions and mission descriptions for the ANP.
To help SIGAR better understand how these decisions were made, and to help us prepare lessons-
learned reports intended to avert the waste of U.S. taxpayer funds in the future, please provide a
detailed accounting of all of the elements of the SAO review boat’s proceedings which led to that
decision, including, transcripts, testimony, and exhibits.

By letter today, I have also requested the Department of the Navy to provide their plans for
disposition of the boats, under the National Defense Authorization Act for Fiscal Year 2014 (Pub. L.
No. 113-66), Section 1531.

Thank you for your cooperation and continued assistance in this matter. Please provide this
information no later than June 27, 2014, to Jack Mitchell, Director of the Office of Special Projects,
at                                 or                 . Please do not hesitate to contact him should
you have any questions.



                                                                        Sincerely,



                                                                        John F. Sopko
                                                                        Special Inspector General
                                                                          for Afghanistan Reconstruction


Enclosure:        I – USFOR-A Response to SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats
                  II – CSTC-A Response to SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats




SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry                              Page 2
ENCLOSURE I: USFOR-A RESPONSE TO SIGAR-14-54-SP INQUIRY LETTER: ANP
PATROL BOATS




SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry   Page 3
ENCLOSURE II: CSTC-A RESPONSE TO SIGAR-14-54-SP INQUIRY LETTER: ANP
PATROL BOATS

SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry   Page 4
SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry   Page 5
SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry   Page 6
SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry   Page 7
SIGAR-14-66-SP-Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry   Page 8
                                                                                                                   April 24, 2014

Major General Kevin R. Wendel
Commanding General, Combined Security Transition
Command – Afghanistan/Ministerial Advisory Groups


Dear General Wendel:

I am writing to request information on a $3 million procurement of patrol boats for the Afghan
National Police (ANP) initiated by the Combined Security Transition Command-Afghanistan (CSCT-A)
in 2010. My focus is on the operational requirements that initiated the procurement of the patrol
boats for the ANP and the reasons for the cancellation nine months later. Additionally, I am also
interested in the requirement for the U.S. government to pay for the storage and related expenses
for these boats for the last 3 years, boats that apparently have no planned use.

In a memorandum of request (MOR) dated 12 October 2010 (enclosure I), CSTC-A requested that the
U.S. Department of the Navy purchase eight rigid-hulled inflatable boats (RHIBs) for use by the ANP
to patrol the Amu Darya river between Northern Afghanistan and Uzbekistan (see figures 1 and 2).
According to the MOR, the total cost of the patrol boats, including spare parts and technical
assistance, would come to just over $3 million.

In response to the MOR, the Department of the Navy procured the patrol craft using the Afghanistan
Security Forces Fund (ASFF). According to documents obtained by my office, in July 2011, CSTC-A
cancelled the requirement for the patrol boats and requested that the contract be terminated and
that the disbursed funds be returned. However, because 80 percent of the funds had been
disbursed at the time of the requirement cancellation and the boats were nearly finished, it was
decided that the contract should be allowed to proceed to completion. According to officials at the
Defense Security Cooperation Agency (DSCA), the patrol boats were manufactured and delivered to
the Navy in 2011 and have been in storage at the Naval Weapons Station/Cheatham Annex,
Yorktown, Virginia ever since.




Figure 2 – Region where patrol boats were intended to   Figure 1 - One of the patrol boats purchased for the ANP
operate
I would appreciate answers to the following questions raised by this procurement decision and
subsequent cancellation:

     •    How many watercraft do the Afghan National Security Forces currently operate? What is their
          mission?
     •    What was the initial operational requirement for these boats? Was a concept of operations
          (CONOPS) written for the employment of these boats?
     •    Which Afghan and coalition organizations reviewed and approved the requirement and
          CONOPS for these boats?
     •    Did CSTC-A review the feasibility of the operational requirement and proposed equipment
          solution before the procurement request decision was made?
     •    How many patrol boats did that initial requirement call for and what was the cost estimate
          for their procurement and initial spares?
     •    Provide a breakdown of the $3 million dollars expended for these boats.
     •    Were any of these ANSF funds returned? The MOR states that the RHIBs were required by
          the ANP Tashkil.1 What was the justification for including this capacity on the Tashkil? Does
          CSTC-A review the feasibility of Tashkil requirements before filling them?
     •    Was the Afghan Ministry of Interior (MOI) involved with this procurement? If so, how?
     •    Why did CSTC-A cancel the requirement for the patrol boats only nine months after the MOR
          was issued? Who cancelled the requirement? Were MOI officials involved in the cancellation
          decision or notified of the cancellation after the fact? Did they concur with the decision?
     •    Was the DOD Afghanistan Resources Oversight Council (AROC) 2 involved in the cancellation
          decision? If so, what was their role and position?
     •    What is the accumulated cost of storing and preserving these boats, and what are these
          costs expected to be in the future?
     •    What are the plans for disposing of or utilizing the patrol boats?
     •    Has CSTC-A conducted any review as a result of the procurement and subsequent non-
          delivery of the ANP patrol boats? If so, what were their findings and actions?

Please provide your response no later than May 9, 2014. Should you have any questions or
concerns, please contact Mr. Jack Mitchell, Director, Office of Special Projects, at                                                 or
                               .

                                                                                    Sincerely,



                                                                                    John F. Sopko
                                                                                    Special Inspector General
                                                                                      for Afghanistan Reconstruction

Enclosure: CSTC-A Memorandum of Request to the Department of the Navy requesting the
            procurement of the patrol boats for the Afghan National Police


1 The Tashkil is an Afghan government Ministry of Interior document that dictates the force structure, personnel end strength, command
relationships, and unit/staff functions and mission descriptions for the ANP.
2 The AROC is responsible for approving all financial and activity plans for the Afghanistan Security Forces Fund (ASFF)




SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats                                                                                  Page 2
ENCLOSURE I: CSTC-A MEMORANDUM OF REQUEST TO THE DEPARTMENT OF
THE NAVY REQUESTING THE PROCUREMENT OF THE PATROL BOATS FOR THE
AFGHAN NATIONAL POLICE




SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats             Page 3
SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats   Page 4
SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats   Page 5
